                            Federal Register / Vol. 68, No. 46 / Monday, March 10, 2003 / Notices                                                  11403

  Dated: March 3, 2003.                     date of the notice. Accordingly, we are                     DEPARTMENT OF HEALTH AND
Sandra R. Manning,                          correcting that issuance date to assure                     HUMAN SERVICES
CGFM, Director, Procurement and Grants      technical correctness of that document.
Office, Centers for Disease Control and                                                                 Fiscal Year (FY) 2003 Funding
Prevention.                                 EFFECTIVE DATE:      March 10, 2003.                        Opportunities Substance Abuse and
[FR Doc. 03–5584 Filed 3–7–03; 8:45 am]     FOR FURTHER INFORMATION CONTACT: Joel                       Mental Health Services Administration
BILLING CODE 4163–18–P                      Schaer, Office of Counsel to the                            AGENCY: Substance Abuse and Mental
                                            Inspector General, (202) 619–0089.                          Health Services Administration, HHS.
DEPARTMENT OF HEALTH AND                    SUPPLEMENTARY INFORMATION:     In our                       ACTION: Notice of funding availability
HUMAN SERVICES                              publication of the OIG Special Fraud                        for Grants to Adopt/Expand Effective
                                            Alert on Telemarketing by Durable                           Adolescent Alcohol and Drug Abuse
Office of Inspector General                 Medical Equipment Suppliers, an                             Treatment (Short Title: Effective
                                            inadvertent error appeared on the                           Adolescent Treatment).
Publication of OIG Special Fraud Alert
                                            heading for section II on page 10255
on Telemarketing by Durable Medical                                                                     SUMMARY: The Substance Abuse and
Equipment Suppliers; Correction             regarding the final issuance date of the
                                                                                                        Mental Health Services Administration
                                            Special Fraud Alert. The heading
AGENCY: Office of Inspector General                                                                     (SAMHSA) Center for Substance Abuse
                                            incorrectly indicated the issuance date
(OIG), HHS.                                                                                             Treatment (CSAT) announces the
                                            as January 2003. The correct issuance
                                                                                                        availability of FY 2003 funds for grants
ACTION: Notice; correction.                 date of this Special Fraud Alert should                     for the following activity. This notice is
                                            read as March 2003.                                         not a complete description of the
SUMMARY: This document sets forth a
correction to the OIG Federal Register        Dated: March 4, 2003.                                     activity; potential applicants must
notice published on March 4, 2003 (68       Joel Schaer,                                                obtain a copy of the Request for
FR 10254) addressing our recently-          OIG Regulations Officer.
                                   Applications (RFA), including Part I,
issued Special Fraud Alert. Specifically,                                                               Grants to Adopt/Expand Effective
                                            [FR Doc. 03–5631 Filed 3–7–03; 8:45 am] 

the Special Fraud Alert addressed the                                                                   Adolescent Alcohol and Drug Abuse
                                            BILLING CODE 4150–04–P
statutory provision prohibiting durable                                                                 Treatment (TI 03–007) (Short Title:
medical equipment suppliers from                                                                        Effective Adolescent Treatment), and
making unsolicited telephone calls to                                                                   Part II, General Policies and Procedures
Medicare beneficiaries regarding the                                                                    Applicable to all SAMHSA Applications
furnishing of a covered item. An                                                                        for Discretionary Grants and
inadvertent error appeared on the                                                                       Cooperative Agreements, before
heading line in section II of that                                                                      preparing and submitting an
document regarding the final issuance                                                                   application.

                                                                                                                                     Est. number    Project
                         Activity                         Application deadline                  Est. Funds FY 2003                    of awards     period

Grants to Adopt/Expand Effective Adolescent Alcohol   May 12, 2003 .....................   $7 million ............................     28–35       3 years.
  and Drug Abuse Treatment.



  The actual amount available for the       obtained from: The National                                 adolescents by adoption/expansion of
award may vary depending on                 Clearinghouse for Alcohol and Drug                          Motivational Enhancement Therapy/
unanticipated program requirements          Information (NCADI): (800) 789–2647 or                      Cognitive Behavioral Therapy—5
and the number and quantity of              (800–487–4889 TDD).                                         sessions (MET/CBT 5).
applications received. FY 2003 funds for       The PHS 5161–1 application form and                         Eligibility: Public and domestic
the activity discussed in this              the full text of the grant announcement                     private non-profit entities are eligible to
announcement were appropriated by the       are also available electronically via                       apply, including units of State and local
Congress under Public Law No. 108–7         SAMHSA’s World Wide Web Home                                government, Native Alaskan entities,
This program is authorized under            Page: http://www.samhsa.gov. (Click on                      Indian tribes and tribal organizations,
Section 514 of the Public Health Service    ‘‘Grant Opportunities’’)                                    and community organizations,
Act. SAMHSA’s policies and procedures          When requesting an application kit,                      including faith based organizations.
for peer review and Advisory Council        the applicant must specify the particular                      Since SAMHSA/CSAT believes that
review of grant and cooperative             announcement number for which                               only existing, experienced, and
agreement applications were published       detailed information is desired. All                        appropriately credentialed providers
in the Federal Register (Vol. 58, No.       information necessary to apply,                             with demonstrated infrastructure and
126) on July 2, 1993.                       including where to submit applications                      expertise will be able to provide
  General Instructions: Applicants must     and application deadline instructions,                      required services quickly and
use application form PHS 5161–1 (Rev.       are included in the application kit.                        effectively, all treatment providers
7/00). The application kit contains the        Purpose: The Substance Abuse and                         participating in the proposed project
two-part application materials              Mental Health Services Administration                       must meet three criteria.
(complete programmatic guidance and         (SAMHSA), Center for Substance Abuse                           • All direct providers of substance
instructions for preparing and              Treatment (CSAT) is accepting                               abuse treatment services involved in the
submitting applications), the PHS 5161–     applications for fiscal year (FY) 2003                      proposed project must have been
1 which includes Standard Form 424          funds for grants to increase the                            providing treatment services for
(Face Page), and other documentation        provision and effectiveness of alcohol                      adolescents for a minimum of two years
and forms. Application kits may be          and drug abuse treatment for                                prior to the date of this application.
